U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

July 14, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Murray Rojas v. United States, No. 20-1594
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on May 13, 2021.
The government’s response is now due, after one extension, on July 19, 2021. We respectfully
request, under Rule 30.4 of the Rules of this Court, a further extension of time to and including
August 18, 2021, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Elizabeth B. Prelogar
Acting Solicitor General
cc:

See Attached Service List

20-1594
ROJAS, MURRAY
USA

PAUL D. CLEMENT
KIRKLAND & ELLIS LLP
1301 PENNSYLVANIA AVE., NW
WASHINGTON, DC 20004
202-389-5000
PAUL.CLEMENT@KIRKLAND.COM
ROBERT E. GOLDMAN
535 HAMILTON ST.
ALLENTOWN, PA 18101
THOMAS M. JOHNSON, JR.
WILEY REIN LLP
1776 K STREET, NW
WASHINGTON, DC 20006
202-719-4550
TMJOHNSON@WILEY.LAW

